The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
                                        F. Scott Kieff
         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                     WASHINGTON, DC 20436


December 13, 2013                                                          OIG-LL-023

Chairman Williamson:

This memorandum transmits the Independent Auditor’s Report on Internal Control (OIG-AR-14-
06) associated with the audit of the Commission’s financial statements for fiscal year 2013. The
results of this report were presented by the auditors and discussed at the exit conference on
December 12, 2013.

We contracted with the independent certified public accounting firm, Castro & Company LLC,
to conduct the financial statement audit. The contract required that the audit be conducted in
accordance with U.S. generally accepted government auditing standards and these auditing
standards require a report on Internal Control to be produced as part of the audit.

Throughout the audit and at its conclusion, my office followed procedures and conducted a final
review that included monitoring the performance of the audit, reviewing Castro & Company’s
report and related documentation, and making inquiries of its representatives. Our final review
disclosed no instances where Castro & Company did not comply, in all material respects, with
the U.S. generally accepted government auditing standards; however, this final review cannot be
construed as an audit, and is not intended to enable us to express, and we do not express, any
opinion on the Commission’s internal control. Castro and Company is solely responsible for this
report dated December X, 2013, and the conclusions expressed in the report.

Thank you for the courtesies extended to the auditors and my staff during this audit.

Sincerely,




Philip M. Heneghan
Inspector General
                                                                                   1711 King Street
                                                                                   Suite C
                                                                                   Alexandria, VA 22314
                                                                                   Phone: 703.229.4440
                                                                                   Fax: 703.859.7603
                                                                                   www.castroco.com
                       Independent Auditor’s Report on Internal Control


Inspector General
U.S. International Trade Commission

We have audited the financial statements of the U.S. International Trade Commission (ITC) as of
and for the year ended September 30, 2013, and have issued our report thereon dated December 9,
2013. We conducted our audits in accordance with the auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and, Office of
Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial
Statements.

In planning and performing our work, we considered ITC's internal control over financial reporting
by obtaining an understanding of the design effectiveness of ITC's internal control, determining
whether controls had been placed in operation, assessing control risk, and performing tests of ITC's
controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the financial statements, but not to express an opinion on the effectiveness of ITC's internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
ITC's internal control over financial reporting. We limited our internal control testing to those
controls necessary to achieve the objectives described in the Office of Management and Budget
(OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements. We did not test
all internal controls relevant to operating objectives as broadly defined by the Federal Managers'
Financial Integrity Act of 1982 (FMFIA), such as those controls relevant to ensuring efficient
operations.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a
material misstatement of the financial statements will not be prevented, or detected and corrected, on
a timely basis. A significant deficiency is a deficiency, or a combination of deficiencies, in internal
control that is less severe than a material weakness, yet important enough to merit attention by those
charged with governance.

Our consideration of internal control over financial reporting was for the limited purposes described
in the second paragraph and would not necessarily identify all deficiencies in internal control over
financial reporting that might be material weaknesses or significant deficiencies. Given these
limitations, during our audit we did not identify any deficiencies in internal control that we consider
to be material weaknesses or significant deficiencies. However, material weaknesses and significant
deficiencies may exist that have not been identified.

We noted less significant matters involving internal control and its operations which we have
reported to ITC management in a separate letter dated December 9, 2013.
Independent Auditor’s Report on Internal Control
Page 2


This report is intended solely for the information and use of the management and the Office of
Inspector General of ITC, OMB, Government Accountability Office, and Congress, and is not
intended to be and should not be used by anyone other than these specified parties.




December 9, 2013
Alexandria, VA
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
